                                                     NA TIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A08100053                                                                         Page 1 of 1




                     As part of a proactive review of Participant Support, NSF OIG randomly selected for review
            a grant I awarded to a University. 2 Review of the financial documents indicated that $11,501.90 was
           :linappropriatelYCharged to Participant Support. The University returned the amount to NSF.

                  Our review raised concerns regarding Participant Support expended by other NSF awards
        •granted to the University. We asked the University to review documentation of Participant Support
       ~irelated to five other closed awards. 3 the University's review found that three of the awards included
       IParticipant Support funds expended inconsistent with the award terms. The University returned
      .. these funds, which totaled $16,415,4 to NSF and instituted a practice of ensuring that Participant
       Ii Support are used consistent with the award terms. Accordingly,this case is closed.
           I




          .,    .


          III




NSF OIG   Form 2 (11/02)
